<html>
<title> - [H.A.S.C. No. 111-147]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-147]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

  BUDGET REQUESTS FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                               __________

                              HEARING HELD

                             MARCH 25, 2010




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  58-295                   WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>  




                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                     Paul Arcangeli, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Thursday, March 25, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Requests from the U.S. Pacific 
  Command and U.S. Forces Korea..................................     1

Appendix:

Thursday, March 25, 2010.........................................    33
                              ----------                              

                        THURSDAY, MARCH 25, 2010
 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Sharp, Gen. Walter L. ``Skip,'' USA, Commander, U.S. Forces Korea     5
Willard, Adm. Robert F., USN, Commander, U.S. Pacific Command....     4

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    40
    Sharp, Gen. Walter L. ``Skip''...............................    83
    Skelton, Hon. Ike............................................    37
    Willard, Adm. Robert F.......................................    44

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   111

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   115
 
FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
          FROM THE U.S. PACIFIC COMMAND AND U.S. FORCES KOREA

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Thursday, March 25, 2010.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today, our committee will 
continue its posture hearings.
    Admiral Robert Willard, Commander of the United States 
Pacific Command [PACOM]; General ``Skip'' Sharp, Commander of 
United States Forces in Korea [USFK].
    At the outset, let me welcome both of you back to our 
committee and thank you for your excellent leadership. We are 
downright proud of you. We all thank the troops that you lead 
along with their families and the incredible service and 
personal sacrifice that they have.
    There is an ever-present danger that we in Washington are 
so focused on Afghanistan and Pakistan and Iraq that security 
challenges elsewhere in the world don't get the attention that 
they merit. More concretely, as a result of the last nine years 
of operations, the readiness posture of all the combatant 
commands outside of the Middle East has suffered, creating a 
high strategic risk. There are clear examples of these problems 
in the Asia-
Pacific, and I believe that we ignore them to our peril.
    Let me review just a few of the daunting challenges ahead 
in the Asia-Pacific area. The rebasing of United States Marines 
from Okinawa to Guam is one of the largest movements of 
military assets in decades, estimated to cost over $10 billion. 
The challenges are there.
    Changes planned as part of the move not only affect our 
bilateral relationship with Japan, they will shape our 
strategic posture through the critical Asia-Pacific region for 
at least 50 years, yet the path forward remains unclear.
    Japan is reassessing the agreement to move troops from 
Okinawa to Guam. It does not appear that the budget includes 
sufficient funds to accomplish the agreement. And the 
Environmental Protection Agency [EPA] has identified problems 
with the rebasing plans' environmental projects.
    We must get this right, and I assure you that this 
committee will work to make sure that we do.
    Last year, North Korea launched a Taepodong-2 missile over 
Japan, conducted a second nuclear test, kicked out inspectors, 
pulled out of the Six-Party Talks, and restarted its nuclear 
facilities. All this occurred in the context of an uncertain 
leadership and succession environment that may have fed some of 
these very concerning events.
    At the same time, our presence in South Korea is 
transforming. We are undertaking tour normalizations in Korea 
and substantially relocating our forces in an effort we will 
hear about today.
    There are also questions about how the new U.S. and South 
Korean command relationship started in 2012 will work. And I am 
interested in an update on those issues.
    Never to be forgotten in this entire region, of course, is 
China, which recently suspended high-level military and other 
contracts with our country in response to a U.S. arms sale to 
Taiwan. While China announced a defense budget increase for 
this year, it is less than it has been in the past. Their 
budget is still growing rapidly, and the linkage between their 
stated strategic intentions and their actions remain unclear in 
certain areas.
    China conducted an unexpected midcourse missile 
interception test earlier this year, and reports of cyber 
attacks from China against Google and other large U.S. 
companies continue to be troubling. We must be proactively 
engaged in the Asia-Pacific region on multiple fronts. We must 
realize that our own actions may well influence the choices and 
actions of others.
    We must be able to pursue opportunities for security 
cooperation with regional allies and partners. And that is very 
important. At the same time, we must ensure that our force 
posture allows us to deter or to confront any security 
challenge that might emerge in that part of the world.
    We have difficult work to do. I am pleased that the 
Department of Defense [DOD] and this Administration have 
already taken a number of positive steps in this direction.
    I now turn to my Ranking Member, my friend, Buck McKeon, 
the gentleman from California, for any statement.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 37.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Today, we conclude our series of posture hearings with the 
Commanders from U.S. Pacific Command and U.S. Forces Korea. I 
would like to welcome back Admiral Willard and General Sharp, 
both of whom have traveled great distances to be with us this 
morning.
    I am glad we were able to spend the whole week here so we 
wouldn't have to ask you to come back again.
    Gentlemen, thank you for your leadership and service to our 
Nation, and please pass on my gratitude to our extraordinary 
military men and women who are serving in the Asia-Pacific 
region to protect Americans' national interests.
    Gentlemen, you are no strangers to this committee. Admiral 
Willard, when you were here a couple of months ago, we had an 
opportunity to examine the Administration's policy toward China 
and how such a policy is aligned with our overall approach to 
the region.
    Let me begin with where our discussion left off in 
January--with my speculation, or rather my fear, that the China 
threat would be downgraded to justify last year's and future 
cuts to key defense programs. According to open-source reports, 
the White House National Security Council [NSC] directed U.S. 
intelligence agencies to lower the priority placed on 
intelligence collection for China.
    If true, I am interested in hearing what impact, if any, 
this would have on PACOM's ability to understand China's 
military modernization. You can provide this information in a 
classified format if you prefer.
    Now, turning to the 2010 Quadrennial Defense Review [QDR], 
when we last met, Congress was weeks away from receiving the 
final draft of the QDR. What we know now is that, unlike the 
2006 QDR, which explicitly called out China as having the 
greatest potential to compete militarily with the United 
States, the most recent QDR understates the requirements 
required to deter and defeat challenges from state actors, and 
it overestimates the capabilities of the force the Department 
would build.
    While the QDR did an excellent job of delineating the 
threat posed by those with anti-access capabilities, notably 
China, it does little to address the risk resulting from the 
gaps in funding, capability, and force structure. This is where 
I would like to focus our discussion.
    Admiral Willard, how would the U.S. assess China's 
intentions and capacity to develop and field disruptive 
technologies, including those for anti-access and area denial 
as well as for nuclear, space, and cyberspace? As you know, it 
is vital for our national security interests that it maintain 
an upper hand when it comes to America's capabilities to 
project power in China's neighborhood and reassure our allies 
in the region.
    From the PACOM perspective, do we have the right range of 
capabilities to counter China's anti-access/area-denial 
capabilities? How is PACOM adjusting in its scenario planning 
to ensure we maintain access to the global commons and 
proximity to Taiwan?
    Are we making the necessary investments in updating our 
scenario planning to take into account advances in these anti-
access capabilities in the mid- to long-term?
    I think it is critical this committee ensures that we 
maintain our military superiority in undersea warfare and in 
environments where there is advanced anti-aircraft, ballistic 
and cruise missiles, and cyber and space threats. China is not 
the only nation of concern, but it is one that requires our 
immediate attention.
    I would like to emphasize that this is not an over-the-
horizon problem, but it is a gap that we face today.
    Mr. Chairman, I look forward to working with you in this 
regard.
    Now, turning to a nuclear-armed, missile-ready, and 
unstable North Korea. Since last year's posture hearing, North 
Korea conducted a nuclear test, and we have seen considerable 
developments in its short-, mid-, and longer-range missile 
programs.
    We know that North Korea has a history of cooperating and 
proliferating with such nations as Syria and Iran.
    Admiral Willard and General Sharp, I hope that you will 
address the following questions. First, how do we define the 
outlook of North Korea as both a regional and global threat? 
How is the United States working with our key allies in the 
region to expand our defensive capabilities?
    Also, as we hear more about increasing demands for missile 
defense in Europe and the Middle East, I would like to learn 
what that means for the Asia-Pacific AOR [area of 
responsibility] and if assets will be taken away from PACOM.
    Again, I look forward to an informative and candid 
discussion, and I thank you for being here.
    Mr. Chairman, I would ask that my entire statement be 
included for the record where I address other issues facing 
PACOM and USFK.
    The Chairman. Without objection, the statement will be 
submitted for the record.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 40.]
    The Chairman. Before I ask each of you to testify, we wish 
to welcome the Admiral's wife, Mrs. Donna Willard, and thank 
you very much for being with us today.
    Admiral, welcome.

   STATEMENT OF ADM. ROBERT F. WILLARD, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Willard. Thank you, Chairman.
    Mr. Chairman, so that we can get to the committee's 
questions sooner, I will keep my remarks brief. But I ask that 
my full statement be included for the record.
    The Chairman. Without objection.
    Admiral Willard. Chairman Skelton, Congressman McKeon, 
thank you for the opportunity to appear before you today to 
discuss the United States Pacific Command and the Asia-Pacific 
region. Seated behind me, as you have already acknowledged, 
sir, is my wife, Donna, who has been at my side for 36 years. 
She is an outstanding ambassador of our Nation and a tireless 
advocate for the men and women of our military and especially 
their families.
    I also would like to thank you for your interest in our 
area of responsibility. I have either met many of you en route 
to the region, or I have followed your travels in the region 
with great interest. Your presence and interest sends a strong 
message, and I invite all of you to stop by Hawaii either on 
your way into the region so my staff and I can brief you on the 
security environment or on your return trip in order that I may 
hear your insights from the engagements that you encounter.
    Today is my first posture hearing as the Commander of 
United States Pacific Command. Since taking command last 
October, I have had the chance to meet with many of my 
counterparts, travel throughout the region, and exercise 
several of our contingency plans.
    When combined with my previous years of experience in the 
Asia-Pacific, this has led me to the following conclusions, 
which I hope that we can expand on during today's hearing.
    The Asia-Pacific region is quickly becoming the strategic 
nexus of the globe as a consequence of its economic expansion 
and potential. Key to our commitment in the region is our 
forward-deployed and postured forces. We face constraints in 
building partner capacity from shortfalls that exist in our 
security assistance programs.
    The United States remains the preeminent power in the Asia-
Pacific though China's rising influence is changing regional 
power dynamics in ways that create both challenges and, I 
think, opportunities.
    Advancing our relationships with our allies and strategic 
partners is vital to maintaining security in the region. China 
continues to progress in the rapid, comprehensive 
transformation of its armed forces, elements of which appear 
designed to challenge our freedom of action in the region.
    And, finally, India's strategic location, shared democratic 
values, growing economy, and evolution as a regional power 
combine to make them a partner with whom we need to work much 
more closely.
    Mr. Chairman and members of the committee, the Asia-Pacific 
region is a region of great potential and is vital to the 
interests of the United States. Every day, the soldiers, 
sailors, airmen, Marines, and civilians of Pacific Command are 
working with our allies, partners, and friends to help maintain 
this region's security. Our success has been enabled by this 
committee's long-standing support. You have provided us with 
the most technically advanced systems in the world and with 
military quality of life worthy of the contributions of all of 
this volunteer force.
    On behalf of the more than 300,000 men and women of the 
United States Pacific Command, thank you for your support and 
for this opportunity to testify on the defense posture of this 
critical region of the world.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Willard can be found in 
the Appendix on page 44.]
    The Chairman. Admiral, thank you.
    This is not, by any means, the first appearance of our 
friend, General Sharp, and I want to welcome you back, and we 
would love to receive your testimony.

  STATEMENT OF GEN. WALTER L. ``SKIP'' SHARP, USA, COMMANDER, 
                       U.S. FORCES KOREA

    General Sharp. Chairman Skelton and Congressman McKeon and 
distinguished members of this committee, I do appreciate this 
opportunity, and I am honored to report to you today on the 
state of United Nations Command, Combined Forces Command, and 
U.S. Forces Korea.
    This year marks the 60th anniversary of the Korean War. 
Since 1950, Congress and the American people have made an 
enormous investment in blood and treasure to first defeat and 
then deter North Korea aggression. The alliance continues to 
reap the returns of that investment.
    The Republic of Korea bears the majority of the burden of 
defending itself, and in 2012, wartime operational control 
transitions from Combined Forces Command to the ROK Joint 
Chiefs of Staff [ROK JCS]. Beyond its borders, the Republic of 
Korea has become an important part of the international efforts 
to keep peace and respond to disasters. With significant forces 
deployed to Lebanon, Haiti, the Horn of Africa, and other 
missions, the Republic of Korea is fast becoming a global 
strategic ally envisioned by the 2009 Joint Vision Statement 
signed by Presidents Lee and Obama.
    With our long-term commitment of 28,500 troops, we continue 
to deter aggression and maintain peace not only in the Korean 
Peninsula but throughout Northeast Asia. Last year, I spoke 
about three command priorities. And thanks to your support and 
funding, I am able to share with you the progress that we have 
made since then.
    First, the United States Forces Korea, in the Republic of 
Korea-U.S. alliance, is prepared to fight and win. I flew here 
directly from our annual Key Resolve/Foal Eagle combined 
exercise. This exercise demonstrated that the United States and 
the Republic of Korea Forces and staffs are trained and ready 
to fight tonight on the Korean Peninsula.
    Second, the Republic of Korea-U.S. alliance continues to 
grow and strengthen. Militarily, we will be prepared to 
transition wartime operational control to the ROK JCS on 17 
April 2012. In last year's Ulchi-Freedom Guardian exercise, we 
successfully stood up and tested many of the post-OPCON 
[operational control] transition command and control structures 
and organizations.
    Through our strategic transition plan, future Ulchi-Freedom 
Guardian exercises and the final certification exercise will 
ensure the readiness of the ROK JCS to accept wartime 
operational control in April of 2012 and the ability of the 
U.S. Korea Command to become the supporting command.
    The Republic of Korea is also deferring a significant 
portion of U.S. Forces Korea costs. Under the five-year Special 
Measures Agreement, Korea will provide U.S. Forces Korea with 
approximately $700 million per year of cost-sharing funds.
    My third priority is improving quality of life for the 
command personnel. We are making substantial progress here, and 
with Congress' support, we will achieve all of our goals. We 
are improving the quality of life through two key initiatives. 
The first is the relocation of U.S. forces.
    By consolidating U.S. forces from 105 facilities maintained 
in 2002 to 48 sites in two hubs, we will make better use of 
limited resources and be better postured to support our service 
members and families.
    The second initiative toward normalization goes hand in 
hand with the relocation. As we consolidate bases, we are 
building world-class facilities in housing that are 
transforming U.S. Forces Korea from a command where one-year 
tours are the norm to one where single service members serve 
for two years, and those with families stay for three.
    In the last 2 years since June of 2008, the number of 
families on the peninsula have increased from about 1,600 to, 
today, over 3,900 families. By keeping trained military 
personnel in Korea for normal tour lengths, we retain 
institutional knowledge and create a more capable force and are 
better able to support the alliance and deter aggression and, 
also, demonstrate our commitment to Northeast Asia.
    At the same time, we are eliminating unneeded, 
unaccompanied tours and building the strong families that are 
key to retention and the effectiveness in this time of ongoing 
conflict.
    To close, the Republic of Korea-U.S. alliance has never 
been stronger. The alliance has successfully deterred 
aggression on the Korean Peninsula for 57 years. In doing so, 
it has helped to make Northeast Asia a remarkably peaceful and 
prosperous place.
    With the Republic of Korea contributing a substantial 
portion of the alliance costs, we are maintaining combat 
readiness and improving the quality of life of our military 
personnel and their families.
    I thank you for supporting the soldiers, sailors, airmen, 
Marines, and DOD civilians and their families serving our great 
Nation in the Republic of Korea. And I look forward to the 
questions.
    Thank you, Mr. Chairman.
    [The prepared statement of General Sharp can be found in 
the Appendix on page 83.]
    The Chairman. Thank you so much.
    Admiral, bring us to date on the proposed plan of moving 
8,000 Marines from Okinawa to Guam. How is it today? What are 
the major challenges that you see?
    Admiral Willard. Mr. Chairman, the Defense Posture Review 
Initiative, the DPRI, the realignment arrangement with the 
Government of Japan, has been ongoing for some time, and 
contains many moving parts, to include the movement of air 
forces and consolidation from urban areas on the main island of 
Honshu to other attendant smaller moves throughout Japan.
    And as you suggest, one of the main thrusts of this is the 
relocation of 8,000 Marines from Okinawa to Guam.
    Currently in discussions with the Government of Japan is 
one element of the Marine Corps move that has to do with an 
airfield relocation at Futenma, which is the rotary-wing Marine 
Corps lift that is attendant to our Marine Air-Ground Task 
Force in Okinawa. And this--the new Government of Japan has 
chosen to relook at the Futenma replacement facility issue, and 
we are looking forward to their response back, which Prime 
Minister Hatoyama has contended will be by next month or--
excuse me--by the month of May.
    So we are looking forward to hearing back from the Japanese 
on this review.
    In our assessment, across Okinawa, having discussed this 
with the Japanese for about the last 17 years, we believe that 
the current plan for the Futenma replacement facility is the 
best plan on the island of Okinawa.
    Other issues with regard to the movement of 8,000 Marines 
to Guam pertains to Guam itself. And as has already been 
suggested in opening statements, there is an ongoing draft 
environmental impact study, and we are presently in 
negotiations with the Environmental Protection Agency [EPA] on 
criticisms of the EIS [Environmental Impact Statement] thus far 
which I would be happy to explain in greater detail if you 
would like. But the EIS is scheduled right now to be concluded 
with a Record of Decision by late summer. And we are 
aggressively pursuing the corrective actions that may come with 
the discussions with EPA.
    But to answer the issues pertaining to the EIS in time, to 
then execute the budget for Guam that has been established thus 
far, so we have, you know, the discussion is ongoing with Japan 
and issues with Guam's infrastructure and others, our EIS 
process, and the combination of the two and the timing of that, 
I think, will establish our ability to move forward with DPRI.
    The last point that I would make, sir, is that this is a 
very complex series of moves associated with DPRI. Many moving 
parts. And in order to achieve it against the timeline and 
within the budget that has been prescribed, will require the 
commitments of both the United States Government and the 
Government of Japan across many departments, in our case, and 
across multiple ministries in the case of Japan.
    The Chairman. Admiral, thank you.
    General Sharp, you explained the length of tours and the 
fact that families will be increasing accompanying the troops 
to South Korea. But would you please tell the committee and 
bring our committee up to date on the moves within South Korea, 
what is being built up and from where are they being moved?
    General Sharp. Yes, Mr. Chairman.
    As you know, several years ago, the Republic of Korea came 
to the United States and said we would like you to move the 
forces that you have in Yongsan, where my headquarters is, from 
Yongsan down to another location further south near Osan Air 
Force Base.
    That was a program called the Yongsan Relocation Program, 
and we agreed to that. And the Republic of Korea is burdening 
all of the cost to construct all the facilities, to replace 
what we have on Yongsan today.
    At about the same time, we said we would also like to 
consolidate forces up north of Seoul, primarily 2nd Infantry 
Division, and consolidate them also down to what is now 
becoming called U.S. Army Garrison-Humphreys.
    That progress, in order to be able to build up Camp 
Humphreys--U.S. Army Garrison-Humphreys--is progressing very 
well. The Republic of Korea has already purchased the land that 
is needed in order to be able to expand Camp Humphreys. It will 
expand three times from what it originally was. It will go from 
a population of about 6,000 military and dependents to over 
49,000.
    We are on track over the next five or six years to complete 
all of the construction down there. We will actually start 
moving down there in 2012 and then phase that in over the next 
several years following that.
    As with the move to Guam, this is very complicated because 
I have to not only make sure all the facilities are in place 
but make sure I have unit integrity so that we could fight 
tonight if we had to. So we are working through, with the 
Republic of Korea, on a very detailed plan in order to be able 
to have all of that move complete.
    Once consolidated down there, thanks to your support and 
really the support of the Republic of Korea, U.S. Army 
Garrison-Humphreys will be an outstanding Army installation. 
And it should be if you can build it from the ground up, which 
we are going to be able to do.
    So we are on track, and I can report good progress, Mr. 
Chairman.
    The Chairman. What date do you anticipate it will all be 
finished?
    General Sharp. Sir, again, the goal is within the next five 
or six years, and I know that is not a definitive date. We are 
trying to do it as quickly as possible to be able to return 
this land to the Republic of Korea and to consolidate our 
forces to improve the quality of life for our service members.
    What we are doing now is taking the very detailed engineer 
work to be able to get all of those moving pieces in place and 
seeing where we can shorten the time by--I mean, such simple 
things as creating another access road into Camp Humphreys 
greatly reduces the amount of time it takes to construct.
    I mean, one example is, in 2012 alone, there will be $2 
billion worth of construction going into Camp Humphreys. And 
the number of trucks that are coming in and out of the gates 
and the number of folks that we have to card to make sure that 
they have access in is what we are trying to reduce and 
minimize as much as possible.
    But, again, to specifically answer your question, I am very 
comfortable to say within the next five or six years, it will 
be complete. But we will have moved a lot of people down there, 
soldiers down there, well before that as the land and the 
construction is complete.
    The Chairman. Thank you, General.
    My friend, Buck McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    And thank you for taking us there last year and giving us a 
chance to see some of that dirt being moved and this air site 
in Okinawa. That was a good, worthwhile trip to get a hands-on 
of what was happening in the area.
    As I stated earlier, the QDR did a good job of delineating 
the threat posed by those with anti-access capabilities, most 
notably China, but it did little to address the risk resulting 
in gaps in funding, capability, and force structure.
    Admiral Willard, from PACOM's perspective, how would you 
assess China's intentions and capacity to develop and field 
disruptive technologies, including those for anti-access and 
area denial? Specifically, can you comment on China's anti-ship 
ballistic missile capability and how it is evolving?
    Admiral Willard. Thank you, Congressman McKeon. I can. And 
thanks for the question.
    The China military capacity has been growing, by and large, 
unabated for the past 10 to 20 years. The past 10 years have 
been pretty dramatic. And as you suggest, this has included 
investments in what has broadly been termed anti-access 
capabilities. Area-denial capabilities is another way to think 
about it.
    And these range from the investments in submarine 
capabilities to investments in integrated air and missile 
defense capabilities to, as you suggest, anti-ship ballistic 
missile capabilities at extended ranges from the mainland of 
China as well as cyber capabilities and anti-space 
capabilities, all of which we have been monitoring very closely 
for some years.
    In terms of China's intentions, one of your questions--it 
is truly the question that we would endeavor to see answered--
the uncertainty that comes with investments of this type 
generates concern not just for the United States military that 
has patrolled this region and maintained security in this 
region, by and large, for the last 150 years, but for the 
regional allies and partners that we have in the region as well 
whose own navies, air forces might be challenged by these same 
capabilities.
    So this is a challenge that we are attempting to address 
with the Chinese that is broader than just the U.S. military 
and the Western Pacific, but I would offer, the entire Asia-
Pacific is interested in understanding what the long-term plans 
are for capabilities such as you described.
    We have worked hard to identify the gaps that you suggest 
and the insufficiencies that are required to deal with area-
denial capabilities such as this, and we continue to. And they 
range from the way in which we develop our concepts of 
operations to actual technologies that the program produces.
    And Pacific Command continues to provide its input both 
individually and through its service components to identify the 
concerns with regard to gaps and insufficiencies as we proceed.
    Mr. McKeon. I think the concerns I have are if we feel like 
or if it is perceived that we are being pushed back, then 
neighbors, allies in the area start taking different positions 
to make sure they have more options. And I think this sets us 
on a path that we don't want to be on.
    What is PACOM doing to ensure that the United States will 
maintain its current access within the global commons and its 
proximity to Taiwan?
    Admiral Willard. Thank you, sir. And related to the final 
statement that you made to the China question, we are not being 
pushed back. I maintain the same forces forward that we have 
enjoyed, again, for decades in both the sea space and air 
space.
    These are commons that we have maintained a presence in to 
guard sea lanes of communication that carry over a trillion 
dollars in commerce per year that not only supports the economy 
of the United States but the economies of our close allies and 
partners in the region and China as well.
    So our presence is being sustained in the region. And as 
you suggest, it is very much an assurance to our allies that we 
are here to stay. And we will continue to work with China over 
time to attempt to ascertain what their long-term intentions 
are but, also, to see them emerge in the Asia-Pacific region as 
a constructive partner, which is truly, I think, all of our 
desire and all of our intent.
    But at the same time, it is very important that it, through 
our presence, through the application of extended deterrence, 
and through the partnering and capacity building that we do in 
the region, that we assure our allies and partners in the 
region and try to suppress the urge to proliferate weapons and 
build up armies as a consequence of the concerns that are being 
generated by this changing dynamic in the Asian area.
    Mr. McKeon. That is very important because we--the question 
what are their intents, we don't know. And we can never know 
another person's full intentions or another country's, so it 
really behooves us to always be prepared.
    I am reminded of President Reagan's comments about all the 
wars in his lifetime never came because we were too strong. So 
I think it is important that we always maintain that area of 
strength.
    Admiral Willard, General Sharp, I am deeply concerned about 
North Korea's provocative behavior during the last year. In 
your judgment, will North Korea return to the Six-Party Talks? 
If not, beyond our tools of diplomacy and sanctions, what are 
we doing to expand our defensive capabilities?
    And, also, as we hear about increasing demands for missile 
defense in Europe and the Middle East, what does that mean for 
the Asia-Pacific AOR? Is it your understanding that assets will 
be taken away from PACOM?
    General Sharp. I will start first with the Six-Party Talks. 
We highly encouraged Kim Jong-il to come back to the Six-Party 
Talks. It is the way that I think that he has the opportunity 
to be able to stop the downward spiral that has happened in 
North Korea over the last several years.
    I do believe that the UN [United Nations] Security Council 
resolutions have made a difference in North Korea and, again, 
we hope that Kim Jong-il takes this opportunity.
    What we have done specifically on the Korean Peninsula in 
order to make sure that we are prepared for any contingency 
from North Korea is along several lines. First, we continue to 
develop our plans to make sure that we do have the full range 
of plans to deal with all possible scenarios.
    Secondly, we have worked very closely between the ROK JCS 
and Combined Forces Command in between the U.S. Embassy, led by 
Ambassador Stevens, and MOFAT [Ministry of Foreign Affairs and 
Trade] in order to be able to make sure that we, in South 
Korea, and we, as the U.S. alliance, along all elements of 
power, are saying one thing to North Korea. And we work very 
hard to make sure that that single voice comes out.
    I also do believe that, as we move towards OPCON 
transition, that is strengthening our force and it is clearly 
demonstrating to North Korea the strength of the Republic of 
Korea military that they will be ready to take the lead in 
2012.
    And, again, I am confident along all those lines that we 
were prepared for North Korea.
    Mr. McKeon. Okay.
    Admiral Willard. As the United States and the other party 
members of the Six-Party Talks all encourage and are attempting 
to bring North Korea back into the talks forum, I would offer 
that our actions, as General Sharp has already described, the 
deterrence that is represented by the ROK-U.S. alliance, is a 
cornerstone of our response to potential aggression from North 
Korea and has been for 60 years.
    I would also offer that our strong alliance with Japan is 
equally a deterrent and that Japan and Russia and China, the 
United States and the Republic of Korea, together, as Six-Party 
members, offer both the impetus to North Korea to return to 
talks and, in our teaming, a deterrent value in itself.
    And then lastly, we have other issues with North Korea than 
just on the peninsula. The potential proliferation of weapons 
of mass destruction [WMD] or the proliferation of the delivery 
systems represented by United Nations Security Council 
Resolution [UNSCR] 1784 are an example of concerns that we have 
that North Korea has in the past, and may continue to be, a 
proliferator.
    And then the provocations that we encountered through the 
sequence of missile tests that occurred last year are another 
example of the actions that we take in this ballistic missile 
defense [BMD] area to deal with North Korea and the instability 
that this regime represents.
    On the subject of European ballistic missile defense, I am 
an advocate of the way ahead in Europe. I think that what the 
maritime BMD dimension brings to our missile defense capability 
is very powerful and very flexible. At the same time, as we 
develop that maritime capability into the future--so this is 
the number of Aegis ships that we transition to be BMD-
capable--and as we develop the missiles themselves that provide 
our BMD capability and, especially, the follow-on missiles that 
will greatly expand the envelope and reduce the requirement for 
as many ships on scene as currently exist--those are the 
capability developments that I think all of the COCOMs 
[Combatant Commands] are watching with great interest, very 
interested to see progress on a timeline.
    Thus far, as we have shared ballistic missile assets 
between Pacific Command, European Command [EUCOM], and Central 
Command [CENTCOM], this has been manageable. But I would offer 
that we still are producing the weapons, and we are still 
producing--you know, transitioning our ships at a pace that 
must be managed very carefully in order to provide that 
capability into the future as quickly as we need it.
    Mr. McKeon. Thank you. Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral, General, thank you so much for joining. It is good 
to see both of you again. And thank you for your service.
    Admiral Willard, I wanted to discuss with you the Marine 
Corps move from Okinawa to Guam. And as you may be aware, this 
realignment of forces has been a great concern for this 
committee.
    In the end, this committee is dedicated to ensuring that we 
realign the forces correctly and that it does not adversely 
impact the residents of Guam. I have been briefed that the 
Department believes an additional 80,000 military, civilians, 
construction workers, and their dependents beyond the 180,000 
current residents are expected on the island of Guam by the 
year 2014.
    The EPA has reviewed the Department's plans and has 
expressed great concern that the Department will adversely 
affect the residents of Guam because of insufficient utility 
infrastructure. There are additional concerns regarding 
workforce's housing, medical care, and other community 
infrastructure.
    And of course, I am a great believer in us having a forward 
presence. Just a couple of questions. With the 80,000 
additional residents in 2014, including 20,000 construction 
workers and their dependents, do you believe that Guam will be 
adversely impacted by the Marine Corps relocation? And what 
steps would you recommend that the Government of Guam take to 
better prepare for this relocation?
    And, finally, what steps should the Federal government be 
taking to support the Marine Corps relocation? I think that 
this is a very important move. I think that--I am a great 
believer in having forward presence with what we see in that 
area. And maybe you can give us some insight or enlighten us on 
this move.
    Admiral.
    Admiral Willard. Thank you, Congressman.
    The move is a very important one to me as well. The forward 
presence of our Marines in Okinawa currently provide great 
flexibility to General Sharp in terms of responses to the 
Korean Peninsula, in our obligations in accordance with our 
alliance and defense agreement with Japan.
    These same Marines are knowledgeable of the area of 
responsibility of the Asia-Pacific region, and they are 
constantly engaged in capacity building with our partners. They 
are my first-to-respond forces for non-combatant evacuation 
operations [NEOs] or for humanitarian assistance and disaster 
response.
    So the III Marine Expeditionary Force, very, very vital as 
a forward-postured force in the Western Pacific.
    The move to Guam of 8,000 of those Marines and their 
families, in order to maintain that forward posture, very, very 
important to Pacific Command and, I think, important to the 
Nation that, as the chairman commented in his opening remarks, 
that we get it right.
    There is no question that the construction pressures on 
Guam through a port that, thus far, is inadequately suited to 
handle the shipping and amount of work that is likely to come 
with the construction efforts in Guam, and that the pressures 
on infrastructure in Guam will be challenging.
    I don't think anyone in the course of our environmental 
impact study and in the course of the deliberations over the 
challenges and issues expressed by the Environmental Protection 
Agency--I think it is acknowledged that Guam infrastructure is 
suffering from inadequacies now given the population on Guam 
and that any additions to the population are likely to 
pressurize its water systems, power systems, waste disposal 
systems, sewage systems, and the like.
    In order to get it right, we are working with the 
Environmental Protection Agency, but, just this past week, I 
sent my senior representatives to Guam with Ms. Sutley, the 
President's environmental adviser, in order that they could see 
first-hand and listen first-hand to the concerns regarding the 
outside-the-fence requirements on Guam, the infrastructure 
concerns that Guam has.
    And it is our intention to work closely with the EPA, 
closely with Ms. Sutley, closely with the Government of Guam, 
in order to identify where the inadequacies are and then to 
work across the departments in this Government in order to 
determine the best solution for the corrective actions that 
need to be taken as a consequence of this relocation effort.
    Mr. Ortiz. Thank you. The people of Guam are great people, 
and I don't want them to feel that we are taking them for 
granted. I am glad that you are coordinating all these other 
agencies to support and build a good infrastructure and, like 
the Chairman said, to do it right.
    Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentleman from Virginia, Randy Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral Willard, thank you for being here.
    General Sharp, we thank you for your service.
    And, Admiral Willard, let me just begin with you. We 
received a breakdown of a list of unfunded requirements that 
the Navy needed. Did you have any part at all in helping to 
create that list of unfunded requirements for the Navy?
    Admiral Willard. The impact that our combatant command 
would have in the Navy's determining a list of unfunded 
requirements would be based on the IPL, the integrated priority 
list that I provide into the Joint Staff process, and it is 
exposed to the Navy, so they will know what Pacific Command's 
particular requirements and concerns are and, as a consequence, 
where it has a maritime dimension to it--and the naval staff 
concurs with that--they will normally include that in their 
unfunded requirements list if it is not already being attended 
to in other ways.
    Mr. Forbes. By definition, I take it, if it is a 
requirement, it would be something you need to fulfill your 
mission, or is there another definition for that requirement?
    Admiral Willard. I think when we discuss requirements in 
the Pentagon or as combatant commanders in our regions, we are 
talking about the needs to fulfill our mission. That said, 
across the globe, not all of our requirements are necessarily 
ever being met to the maximum. And as a consequence, we 
mitigate to the requirements where shortfalls exist or gaps 
exist.
    Mr. Forbes. General Sharp, would you concur? Do you have 
any role at all in participating in the unfunded requirements 
that the Army would have? And would you agree with Admiral 
Willard that they were requirements needed to fulfill the 
mission?
    General Sharp. Yes, sir. I go through the same process. I 
submit my requirements in order to be able to execute my plans 
through Admiral Willard who then consolidates them, as he said, 
and submits them to the Joint Staff.
    Mr. Forbes. One of the things that I would ask you both--
not today because I don't expect you to have that information 
now--we are in the business of making sure you have what you 
need to do your jobs, and when we get that list of unfunded 
requirements, we assume that they are requirements and we want 
to try to see how we can get them.
    One of my worries is always our ability to assess the risk 
factors we have of not getting those requirements. I would just 
ask each of you if you would be kind enough to submit for the 
record, at some point in time, which of those requirements 
would impact you and some assessment as to the risk we run if 
we do not fulfill those requirements.
    Could you provide that for us at some later date? Again, 
don't expect you to have that information----
    Admiral Willard. Yes, Congressman. I will provide you that.
    [The information referred to can be found in the Appendix 
beginning on page 111.]
    Mr. Forbes. Thank you very much.
    Admiral, the last thing I would like to ask you, one of the 
things that we always worry and hear about is when we see that 
spiraling curve of ships that the Chinese are creating and we 
see a downward move in the ships that we have, how do we have a 
mechanism that adequately deals with the risk factor of those 
two curves changing?
    And you and I had the ability to talk about this before. 
And I would just wonder if you could tell us today, one, at 
what point does quantity start mattering? You know, sometimes 
we always love to say, well, the quantity is different, but we 
are looking at capabilities. But at some time, quantity has a 
role to play there.
    Secondly, how comfortable do you feel with our risk 
assessment mechanisms? I mean, are there weaknesses there? And 
thirdly, what is the role that modeling and simulation might be 
able to play in cutting that down?
    Admiral Willard. Thank you, sir. Those are excellent 
questions, all three.
    And I think the answer to the first is that quantity has 
its own quality now. So those of us that have regional 
responsibilities, and especially the Asia-Pacific which relies 
so heavily on forward presence and posture and time-distance 
factors that are profound in this region of the world that 
encompasses half the globe, that the ability to be present in 
all of the places that we are required to be demands that 
certain quantities of force structure be made available to this 
particular region.
    I think the 60-40 split that has been decided upon in terms 
of submarine force structure and aircraft carrier force 
structure are examples of the bias toward meeting the quantity 
demands of Pacific Command.
    But, again, to your question, quantity is important to all 
of us now, I think.
    In terms of our ability to, you know, view or quantify our 
forces into the future, I think the--it will be very important 
for us to ensure that we identify where the forces must be 
present, how they must be present, and to describe that back to 
our, both down to our, service components and back to our 
leadership in the Pentagon.
    And so, once again, I think the ability to gauge risk 
associated with quantity shortfalls, the importance of being 
able to characterize the risk that might be attendant to our 
contingency plans or the risk that might be attendant to our 
ability to meet our peacetime requirements, are important 
elements to quantify. And when we account for risk at the unit 
level and walk it up to a strategic level, there is a compound 
risk factor that I think needs to be accounted for as well.
    And these things are not entirely objective. Sometimes some 
subjective and difficult, as you have suggested, to understand, 
to quantify, and to discuss in an apples-to-apples way. I think 
that modeling and simulation is a mechanism that would assist 
us in accomplishing that.
    So this is the idea that, in a modeling and simulation 
approach, that risk factors could be incorporated into that 
quantitative or, in the case of modeling and simulation that 
occurs in a qualitative way, qualitative fashion.
    Mr. Forbes. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman from Mississippi, 
Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank both of you gentlemen not only for your 
service to your country but for making a very long trip back to 
Washington to testify before the committee.
    Admiral, you know, our Nation has got a lot of challenges. 
I am told that this year, the Social Security Trust Fund starts 
paying out more than it collects in taxes. Same for Medicare. A 
trillion dollar annual operating deficit and it just doesn't 
get any easier when you look at replacement of the Ohio class, 
the Joint Strike Fighter coming on board, et cetera, et cetera.
    With regard to the Ohio class, the early estimates are is 
that ship is going to cost in that neighborhood of $7 billion. 
And unfortunately, my experience here is, if someone tells me 
it is going to cost $7 billion, it means it is $9 billion by 
the time it is actually delivered or more.
    The primary reason for the Ohio replacement is to carrier 
the D5 missile which travels approximately 5,000 miles. So my 
question to you as the person with the toughest job in the 
Navy: Should we be building a sub that fits the D5 missile? Or 
should we consider--and I want to just use the word 
``consider''--building a missile that will fit the Virginia-
class submarine which has proven to be a very good acquisitions 
programs, and I am told by those who operate those vessels, a 
fine submarine?
    If you are uncomfortable talking about that in public, I 
would welcome your thoughts in private, but it is a decision 
that is going to affect shipbuilding budgets starting about the 
year 2019 in a very significant way. And in the purest terms, 
in 2019, we can buy a carrier and a sub a year, and there is no 
money for anything else. And I know that is unacceptable.
    Secondly, to Mr. Forbes' comment about--Mr. Forbes, I can 
assure you today, you are going to have an opportunity to cast 
a vote to grow the Navy. I am going to put that on the table 
and give you that opportunity. Okay? We only want to go one way 
on this committee, and that is for a bigger fleet.
    And lastly, General Sharp, I wanted to say this. I like 
Koreans. I take tae kwon do from a Korean guy. They are smart, 
diligent, hard-working people. I took the opportunity to visit 
four of the most phenomenal shipyards in the world. They are 
all in Korea. It was a humbling experience as a guy who 
represents shipbuilders to see the money that they have 
invested in those yards. It is a beautiful modern country.
    I mean, most Americans, including myself, have this image 
from the show ``M*A*S*H'' of Korea in the 1950s. It looks 
nothing like the nation now.
    Having said all of that, at what point could we declare a 
victory and bring those 28,000 Americans home? Because, again, 
that is a very modern, well-financed country with sharp, 
hardworking, diligent people and, again, a phenomenal 
manufacturing base.
    So at what point do we still need to be there, in your 
opinion?
    Admiral Willard. Congressman, I will begin with your 
question regarding Ohio class, the Virginia-class option with 
regard to replacement for our SSBNs [ballistic missile 
submarines].
    Fundamentally, the missions differ greatly between our 
fast-attack submarine [SSN] force and our ballistic missile 
submarine force.
    Mr. Taylor. I understand that, sir.
    Admiral Willard. I think that alone calls for a 
recapitalization of our SSBN force when the time comes. And I 
take your point that submarines are very expensive----
    Mr. Taylor. I guess, to my point, do you need a 5,000-mile 
missile? What is the magic number, if there is such a thing, 
for the distance that that missile should need to travel in 
order to fulfill your needs?
    Admiral Willard. Senator, I think we ought to--I think we 
ought to----
    Mr. Taylor. I think that is the question.
    Admiral Willard. Okay. That is probably a subject more 
appropriately taken in closed committee.
    Mr. Taylor. Would you, at some point, get me that answer.
    Admiral Willard. I will.
    Mr. Taylor. Okay. Thank you.
    General Sharp, to my second question?
    General Sharp. Sir, first off, as you just pointed out, the 
Republic of Korea has greatly advanced since the end of the 
Korean War. Their military has, likewise, greatly advanced.
    And they are taking more and more responsibilities not only 
for the defense of their own country, as evidenced by the move 
towards OPCON transition, also evidenced by, since 1994 when 
the ROK JCS has been responsible for and in charge of OPCON of 
their forces during armistice, but also what they are doing 
globally in order to be able to, as I said in my opening 
statement, to help build peace and security around the world 
with all the different peacekeeping missions that they are in. 
They are about ready to go back into Afghanistan.
    Having said that, I really do think that presence makes a 
big difference in any part of the world. And I think that our 
presence and our teaming with the Republic of Korea for the 
foreseeable future, just as it has for the last 57 years, will 
ensure peace and stability in Northeast Asia for the 
foreseeable future.
    So I think our investment of 28,500 troops, which our 
President and Secretary Gates have said is the force level that 
we will maintain for the foreseeable future, is a great 
investment in order to be able to help build the ROK military, 
as I think we have helped greatly along those lines so that 
they can globally engage, and to be able to have peace and 
security remain in Northeast Asia.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank both of you gentlemen.
    The Chairman. Thank you, gentlemen.
    The gentleman from California, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service.
    And to Mrs. Willard, you look much better off than your 
husband does after those 38 years. You have held up great.
    But my question is, going with--being a Marine spouse or a 
Navy spouse can, at times, be lonely, fulfilling, exhilarating, 
and just not fun sometimes. So thank you for your service as 
well.
    Tying into Ranking Member McKeon's question, when it comes 
to access--and I am talking forcible access. Just really 
quickly, what would you rate our forcible access capability on 
an A through F grade when it comes to the Pacific?
    Admiral Willard. We believe that, in our contingency plans, 
that we can achieve the access required to win those plans.
    Mr. Hunter. So it would be an A-plus then? You can be 
anywhere that you needed to?
    Admiral Willard. I would offer that, to be quantitative--I 
mean, to describe this in the way that you desire, my 
preference would be to do this in a closed hearing.
    Mr. Hunter. Okay. Okay. We can do that. That was my 
question. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Larsen, please.
    Mr. Larsen. Can I have the rest of Mr. Hunter's time? 
[Laughter.]
    Just kidding.
    Gentlemen, thanks for coming and helping us out. I want to 
start with General Sharp. I have to tell you, there is no 
better advocate for tour normalization in Korea than a spouse 
from my district. And so when you matched her up with my wife 
and me--or your predecessor did when we were there last--I 
heard about it on the way back, so, no better advocate. And I 
want to ask a question about that with regards to tour 
normalization.
    So we are headed to this, and it is a great idea, but what 
are the resources that you need, and how are you planning for 
those resources to accommodate the, you know, two-year and 
three-year tours?
    General Sharp. We are approaching tour normalization in a 
process to make sure that, as I tell the folks in my command, I 
don't get ahead of my own headlights because we have got to 
make sure we have got the right infrastructure from schools, 
from housing, from medical in order to be able to do the right 
thing for these families.
    So the phases that the Department is going through right 
now is we are in, if you will, right now the first phase of 
tour normalization, which is to get the number of families 
there that I can accommodate with the infrastructure that I 
have in place, basically, right now.
    And that number is about 4,900 families. And, again, we are 
at about 3,900 right now. The goal is to get to that 4,900 and 
the services, mainly the Air Force and the Army, are committed 
to that by the end of, really, next summer. And, again, I am 
confident that we can get there. We are increasing about 100 
families a month in Korea right now.
    The next phase is really what we are working through right 
now with the POM '12-'17 [Program Objective Memorandum 2012-
2017] work that is going on right now in the Department and how 
quickly we are going to be able to get there. It is also--we 
have also got to link it to the move down to Camp Humphreys and 
the completion of Camp Humphreys because, again, that will be 
the place where we have the majority of Army service members 
and families. There will be many still down at Daegu, but the 
big hub is going to be at Camp Humphreys.
    So there is going to be some time in there where we are 
concentrating on moves and concentrating on building that Camp 
Humphreys infrastructure. And then, again, it gets down to, you 
know, the resources in order to be able to move forward to get 
all the facilities needed.
    And, again, you will see that, well really, next January 
when the Department submits the '12-'17 POM.
    Mr. Larsen. Okay. Thanks.
    Admiral Willard, two questions for you. In your testimony, 
on page 12--as I am leafing through this--on page 12, I think 
you really wrap up the issue with China--China's interest a 
peaceful, stable environment that will support the country's 
developmental goals is difficult to reconcile with the evolving 
military capabilities that appear designed to challenge the 
U.S. freedom of action in the region. That is sort of this 
conundrum that we are in with this relationship with China.
    On page three, you talk about the growing presence and 
influence in the region create both challenges and 
opportunities. And we have been through some of these--you have 
talked through some of these challenges. Anti-access, we have 
talked about the ASAT [anti-satellite] tests, the military 
modernization.
    But I was wondering if you can talk about, you know, what 
kind of opportunities line up against that. And the final 
question I would have for you, if you would include separately, 
is you say we face challenges in building partner capacity in 
the current patchwork of authorities and programs designed to 
support our security assistance efforts.
    Can you briefly wrap up your answer by talking about what 
does that patchwork look like and what does it need to look 
like to be cohesive for it to work for you?
    Admiral Willard. Thank you very much, Congressman Larsen.
    In terms of opportunities with China, when you consider the 
capacity building that has been ongoing, particularly as it 
relates to the PLA [People's Liberation Army] Navy, the 
potential for China to contribute constructively to security of 
the region and to contribute to ongoing prosperity in the 
region, the protection of commerce and the like is excellent--
terrific.
    To date, we haven't seen them dedicate their assets to that 
goal. Although, were they to emerge as a constructive partner, 
I think the region would be better for it. And when we look 
across the capabilities that they have produced, their ability 
to demonstrate a contribution to counter-piracy in the Gulf of 
Aden, their ability to contribute into Haiti, and what that 
could look like in an ability to contribute into the Asia-
Pacific region in our every-eight-week disaster response on 
average or through the soft areas of humanitarian assistance, I 
think China has great potential in all of that.
    Mr. Larsen. And, Mr. Chairman, could we get for the record 
the answer to the third question about security assistance and 
the patchwork and some of the changes Admiral Willard would 
like to see happen to make that work better for him?
    The Chairman. Yes. If the Admiral would furnish that, 
please?
    Admiral Willard. I would be happy to furnish that, sir.
    Mr. Larsen. Thank you.
    [The information referred to can be found on pages 30 
through 31.]
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thanks, Chairman.
    General Sharp, Admiral Willard, thank you so much for your 
service to our country.
    General Sharp, you mentioned the movement of our troops 
from the northern part I guess towards the demilitarized zone 
[DMZ] of South Korea down to Camp Humphreys. And I understand 
that the South Korean Government is paying for those costs.
    General Sharp. Sir, they are paying for the cost of 
rebuilding the facilities that I have at Yongsan where my 
headquarters is now in Seoul. The cost to consolidate and to 
move the 2nd Infantry Division, which are in the camps and 
stations north of Seoul to Camp Humphreys is a shared burden 
between the United States and the Republic of Korea.
    Mr. Coffman. Okay. And the policy change from an 
unaccompanied tour to a longer accompanied tour where the 
families of U.S. military service personnel are now going to 
South Korea, I understand probably now for, instead of a year 
assignment, now the personnel will stay on station for three 
years.
    But is that the U.S. cost--is that a cost to the U.S. 
taxpayers to build those schools, to build that infrastructure?
    General Sharp. Primarily, yes. And we are looking, again, 
at how to best do that to partner through many different 
mechanisms in order to be able to have that to be the most 
reduced cost. There is savings in and of itself where you don't 
have to, you know, send somebody every year. Just the cost of 
moving people around, I think, is a cost that you are going to 
save by longer tours over there.
    Mr. Coffman. Sure.
    General Sharp. The other thing is the tour normalization, 
as we call it, really bring us is, of course, a much more 
capable force. If I don't have to train a new service member 
every year but I have got them for two or three years, that 
really greatly increases just our overall capability.
    Secondly, is it really does reduce stress. Why have an 
unaccompanied tour anywhere in the world if you don't have to? 
And, finally, it really does, I think, show our commitment to 
Northeast Asia, which is critical.
    Mr. Coffman. I think that is my question, about showing our 
commitment. And I would raise the point, can't we demonstrate 
commitment by having, say, annual scheduled military 
exercises--as we do currently, is my understanding--where we 
bring forces from the United States, when available, but to 
have annual exercises with the South Korean military where we--
instead of having our forces permanently there, that we bring 
them there?
    And we will certainly know that, when the situation would 
dictate, that intelligence or say the political environment and 
the military environment, the security environment in South 
Korea is such that it is coming to a boiling point, then we 
deploy our forces there.
    So is it necessary in this day and time to permanently 
have--if I understand the numbers right--28,000 U.S. military 
personnel in South Korea?
    General Sharp. Sir, first off, as you said, we do do 
exercises throughout the year, several very big ones. But I 
guess I personally believe that presence consistently around 
there in order to be able to develop the relationships, in 
order to be able to help work together military-to-military, is 
a requirement and gives us huge benefits to be able to do that.
    So I think, again, that presence is a requirement in an 
important part of the world like Northeast Asia.
    Secondly, to your point on being prepared and being able to 
have forces come, you know. As you know, North Korea has the 
great majority of their forces currently stationed very close 
to the DMZ. And the ability for them to be able to attack with 
little notice is there. And that is why we have to be prepared, 
shared with, you know, with the Republic of Korea who really 
has the forces along the DMZ to be prepared for that short 
contingency and to be able to get--our family members out of 
there--the other American citizens out there and then to be 
able to receive other forces that come in.
    So, again, and the number, sir, is 28,500. I do believe it 
is a great investment and has proven itself for 57 years in 
order to be able to maintain stability in not only Korea but 
Northeast Asia.
    Mr. Coffman. Okay. Thank you.
    Admiral Willard, it would seem like, with China, that they 
could be participating in the Six-Party Talks a lot more than 
they are; that they certainly have the capacity to put pressure 
on North Korea that they are not putting on North Korea. It 
would seem to me that they feel that they benefit by having an 
uncertain security situation in North Korea and by forcing us 
to provide our assets in that direction.
    Could you comment on that?
    Admiral Willard. Congressman, I think we are convinced that 
the Chinese are committed to the denuclearization of North 
Korea as we are. And they have made efforts, increasing 
efforts, I think, over the past year to exert their influence 
over North Korea. At the end of the day, the choice to reenter 
into Six-Party or not has been a North Korean refusal.
    The Chairman. Thank the gentleman.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your service and testifying 
today.
    Admiral, in looking at--we talked about our forward 
presence in relation to China and looking at it on a routine 
basis where there is not heightened tensions between the two 
nations. As we move forward, and if we--and not looking at a 
specific that we have a mission there to carry out where we 
insert to do certain things. But as we move forward, if there 
was a time of say, heightened tensions, could we maintain that, 
with what we anticipate the Chinese to do, could we maintain 
that forward presence and still have safety in our fleet?
    Admiral Willard. If I understand your question correctly, 
Congressman, I think the answer is yes.
    We maintain a forward presence in the region for many, many 
purposes, and, again, the safety of the maritime domain, the 
safety of the sea lines of communication, and the international 
air space is a main reason why we are there.
    We respond to heightened tension and have, in my 
experience, on a fairly regular basis, last year's provocations 
out of North Korea being a perfect example.
    And I am very confident in my ability to consolidate forces 
where I need them when I need them should a contingency arise.
    Mr. Kissell. And we have talked about China and its 
relation with the United States and Japan and Korea. What about 
in the other parts of Southeast Asia, the other countries? As 
we see the presence of China grow and that influence change, do 
you see any response in those countries in how they might be in 
relation to us, the Chinese, and how that might be changing?
    Admiral Willard. Well, I think that China's influence is 
very wide-ranging throughout the Asia-Pacific region, and I 
would offer farther than that. I mean, we have all read and 
understand China's influence in Africa, China's influence in 
South America and so forth. I mean, this is a greatly expanding 
economy, and they are very influential.
    Likewise, their military-to-military contacts are also 
expanding throughout the region such that, wherever I go, 
whether I am speaking to military leadership or civilian 
leadership, we often have a discussion with regard to China, 
their influence in the region, their expanding military 
capacity, and what our views on it are.
    I think there will be comparisons drawn regarding the 
presence and influence of the United States military and the 
growing influence of China, you know, for a long time. And now, 
those comparisons are drawn and often written about or 
commented on throughout the region.
    Mr. Kissell. At this point in time, there is changing 
relationships in the recognition of China and its objectives. 
Is there anything exceptionally negative there towards our 
relations with other nations that are taking place?
    Admiral Willard. I think on the contrary. The other nations 
are very receptive to U.S. presence, so this has been mostly a 
discussion regarding our staying power in the region and their 
desire for our continued influence in the region.
    Mr. Kissell. Thank you. And, General, the move in Korea to 
Camp Humphreys, is that more strategic? More political? A 
combination? What for? What are the things that went into that 
thinking?
    General Sharp. First off, I think we are going to get a lot 
more efficient because we are able to consolidate. We are going 
down from over 105--approximately 107 camps and stations that 
were basically there at the end of the Korean War down to about 
45 camps and stations and consolidating many of those forces 
going into Camp Humphreys.
    So just the efficiency that comes with that consolidation, 
I think, is very important.
    Secondly, again, it is able to be able to give back to the 
Republic of Korea some of the land that is very valuable, and I 
think that strengthens as far as the strategic alliance in 
order to be able to do that.
    Mr. Kissell. And one last question. The expansion of the 
time--the rotation. We have been through all the reasons why. I 
am assuming this is popular with the service and their 
families?
    General Sharp. Sir, thank you for that question. It really 
is. And it is popular for a couple of reasons.
    Number one is, of course, we have many unaccompanied tours 
for service members that are going to Iraq and Afghanistan and 
other places, and there is no need to have an additional one in 
Korea.
    And secondly, the Republic of Korea is a great place to 
live. It is a great place to serve. The training that we are 
able to give our service members because of the ranges, because 
of the joint environment that we do with other services and the 
combined that we do with the Republic of Korea military. It is 
a great place to train our military.
    It is extremely safe. The people in Korea understand the 
importance of U.S. forces there. A recent State Department poll 
gave us 87 percent of the people in Korea say it is important 
for us to be there. So it is a great place to serve.
    Mr. Kissell. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Wilson, please.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Admiral and General, thank you very much for your 
service.
    I had such a great opportunity last year to go with a 
delegation the chairman led to Hawaii and to the very beautiful 
island of Guam, to Iwo Jima, Okinawa, to Korea. And everywhere, 
the American troops would just make you so proud.
    And what you have achieved--one of the longest periods of 
lack of conflict in the Pacific in history, and it is because 
of your good work and the good work of our troops. I am 
particularly grateful because my dad served in India and China 
during World War II. And I learned firsthand growing up the 
business spirit of the people of those two countries. And it 
has been exciting as the past co-chair of the India Caucus, the 
largest country caucus here in Congress, reflecting the new 
partnership between India and the United States.
    And so, Admiral Willard, how is the Pacific Command 
engaging with India to help address terrorism concerns and 
strengthen the U.S.-India security partnership?
    Admiral Willard. Thank you very much for that question.
    We regard India as a particular area of focus for growing 
the strategic partnership that India and the United States 
currently enjoy. And the military-to-military relationship is a 
very important part of that. In the five months that I have 
been at Pacific Command, I have traveled to India twice and 
had, you know, very encouraging and good discussions with my 
counterparts there.
    I think that the India-U.S. relationship right now is 
stronger than I have ever enjoyed. As you know, because of our 
history, we have only been truly engaging with India mil-to-mil 
[military-to-military] for about the last half a dozen years. 
And yet it has been pretty profound how far that has come.
    We are engaged with India now with regard to their 
counterterrorism challenges, particularly as it relates to 
Lashkar-e-Taiba, the terrorist groups that emanates from 
Pakistan and attacked into Mumbai, and what we believe to be 
their presence in areas surrounding India. And PACOM has a 
responsibility to develop the contingency plans to deal with 
that in support of our Indian friends.
    So I think, from foreign military sales [FMS] to other 
means of security assistance, to high-level strategic talks and 
the counterterrorism concerns that we both have, the Indian-
U.S. relationship is terrific.
    Mr. Wilson. And as you said, it is exciting. This has only 
been a recent phenomenon. And the world's largest democracy, 
India, with the oldest democracy, the United States, and to see 
us working together. I want to thank you.
    Another success story, obviously, is Korea, General. And I 
had the opportunity to meet with Korean troops in Afghanistan 
at a provincial reconstruction team site. What an example Korea 
is of recovery, success after a war. And so with that, I know 
our relationship now is going to evolve into a Joint Vision 
Statement.
    Can you tell how that will work?
    General Sharp. As I said, both President Lee and President 
Obama signed a Joint Vision Statement in June that really takes 
a look at how can the Republic of Korea-U.S. alliance engage 
globally through all elements of power in order to be able to 
help security and stability, to be able to help economically 
around the world.
    I think President Lee's vision is to be able to--because of 
the great prosperity and the great progress that the Republic 
of Korea has made since the end of the Korean War, to be able 
to give back some of that to the rest of the world. I mean, he 
is doing it--I will speak on the military side--very well with 
the different places that they are in UN peacekeeping missions 
around the world.
    And I think any sort of mechanism that increases that 
alliance between the Republic of Korea and the U.S., whether it 
is militarily or economically, really strengthens us in 
Northeast Asia and, really, globally.
    Mr. Wilson. And I can remember, as we were studying to go, 
that Korea had a per capita income back in 1960 of like a 
hundred dollars, today--which is equivalent to Afghanistan, 
but, today, one of the wealthiest countries on Earth. And so we 
can't anticipate that for Afghanistan, but we can sure try to 
create the environment.
    A final question, Admiral, we do have international 
terrorism in that region. What is our success, particularly the 
Philippines?
    Admiral Willard. Thank you, sir.
    The Philippines is now a longstanding engagement in support 
of the armed forces of the Philippines counterterrorism 
efforts. It has been very successful and particularly so in 
about the last 24 months where significant accomplishments 
against the Abu Sayyaf group have occurred.
    As you suggest, in our region, we have concerns in 
Indonesia. The Indonesian Government has been successful there, 
and we are now engaging the issues in and around India that I 
just described.
    So we have our own counterterrorism responsibilities that 
we are accomplishing through the great efforts of our forces 
every day.
    Mr. Wilson. Thank you.
    The Chairman. Mrs. Davis, please.
    Mrs. Davis. Thank you.
    Thank you so much for your service, both of you, and for 
joining us today.
    General Sharp, I actually am very pleased that many of my 
colleagues have asked about the normalization in South Korea, 
and I appreciate that as a spouse who was there in Japan many 
years ago during the Vietnam War.
    I actually have been wanting to kind of go and see with my 
own eyes. One of the concerns that I understand that may be 
changing some points of view for families are the high cost of 
housing, and I want to ask you quickly about that.
    Is it that we are not raising the bar sufficiently? We 
don't have, I would assume, enough housing on any of the bases 
to accommodate those families.
    General Sharp. We, of course, go through recurring looks at 
how much cost of housing for those that are not on-post, are 
not on one of our bases, and we adjust in order to be able to 
accommodate that, so I believe that we are paying the amount 
that we need in order for families to get to standard housing 
off-post.
    Mrs. Davis. And of those families that you--when you see 
them coming on, you mentioned about a hundred a month--what 
percentage are on-post? What percentage are on the economy?
    General Sharp. It depends upon where they are going. All of 
them up north of Seoul are on the economy because we are moving 
out of those locations, and we are not going to build housing 
up in that area.
    I had to make the decision can we bring families to what we 
call Area 1, 2nd Infantry Division, or not have any families 
there until the move to Camp Humphreys. I talked to a lot of 
people, and people understand that, when they come command-
sponsored up there, the facilities that they are going to get, 
but it is a family choice to be able to do that.
    And, again, they get housing allowance to get into true 
standard quarters off-post in Yongpyong--and the other places 
up north. Down where we are in Seoul, the great majority are 
on-post as is down in Osan on the Air Force base down there.
    That is kind of why I am capping at 4,900 until we make the 
move so that we can balance what we have both on-post and off-
post. And let me just be a little more specific in Seoul. It is 
either on-post or Government-leased quarters which we have some 
around Seoul as to where the families are living. They are 
allowed to live on the economy, but that is what we have 
available at Seoul.
    Mrs. Davis. And on the economy, it has to be three years 
even for the economy--or can it be two years accompanied as 
well?
    General Sharp. Right now, it can be two years or three 
years. The service member gets to make that choice. And the 
Department decided to start at that so that, as someone 
mentioned earlier, there is still a vision within a lot of our 
families, of ``M*A*S*H'' in Korea. And until we get the word 
out that, no, Korea is a modern country and it is a great place 
to live, the service members are being given choice. You can 
either come for two years and bring your family, or you can 
come for three years.
    Mrs. Davis. Thank you.
    I wanted to ask about public opinion in both of the AORs 
and the extent to which I guess, in Korea, that the fact that 
you do have more families on the economy, what impact that has 
at all.
    But, also, speaking to Japan, you mentioned, Admiral 
Willard, the need to keep that relationship strong. I am 
wondering, also, about the messages that Members of Congress 
can send on any visits they make to Japan or even in your AOR. 
I mean, how important is that? Is that something that you would 
encourage more of?
    We know that members do travel, a lot, you know, certainly, 
to the war theater. But as well, we probably need to be making 
some of those contacts as well. We certainly do some of that, 
but perhaps it could and should increase.
    Admiral Willard. Thank you. I don't think there is any 
place in the world where the U.S. message is regarded as so 
important and so valued as in the Asia-Pacific. You know, we 
are polling and trying to understand the extent to which we are 
understood and the extent to which we are supported in the 
region.
    I would offer that, in recent surveys in Japan, the 
alliance is very, very highly regarded by the Japanese people, 
and I think that the recent statements by the Japanese 
Government as well have reinforced that.
    But I think Congress' messages, whether they are delivered 
here in Washington or whether it is during your travels into 
the Asia-Pacific, that have to do with our commitment to the 
region, the importance that our presence in the region, in your 
views, shares. I think these messages are invaluable. So thank 
you for delivering them and look forward to hosting you.
    The Chairman. I thank the gentlelady.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I have no questions.
    Well, on second thought, I will ask about----
    The Chairman. Go ahead.
    Mr. Johnson. Thank you, sir. I will ask about Guam. The 
water facilities, the facilities, the infrastructure to deliver 
water, electrical generation facilities, landfills or some way 
of doing away with trash and garbage, sewage capacity, those 
kinds of things on the island as it is now would be--are 
already--those systems are termed as being inadequate. Is that 
correct?
    Admiral Willard. Congressman, I think that there are 
different levels of adequacy and insufficiencies associated 
with Guam infrastructure. It is important to remember that, by 
and large, this is infrastructure that was created after World 
War II and probably into about the 1970s, and they do have, you 
know, many concerns, challenges that they face.
    In the area of water, they have an aquifer in the north and 
a reservoir in the south actually on Navy property. And the 
sufficiency of the aquifer is, right now, a concern of 
scientists in evaluating Guam's ability to absorb more.
    So as you suggest, there are waivers and other challenges 
associated with Guam infrastructure, by and large, across the 
board of the items that you discussed.
    Mr. Johnson. I mean, what would we do with trash and other 
waste products for 80,000 people at peak construction? How 
would we handle that? Is there a plan in place right now?
    Admiral Willard. Well, Guam is in the process of developing 
another solid-waste disposal area on the island.
    Mr. Johnson. A landfill?
    Admiral Willard. They are expanding their landfill capacity 
now. But I think the answer to your question is, one, that, you 
know, the private enterprise could assist with and that we have 
to think broadly about how Guam fulfills its needs for its 
people through this, you know, peak capacity of new 
construction and with the additional 8,000 Marines and their 
families that, ultimately, would settle there.
    So there is analysis to be done to the extent that it 
hasn't to ensure that we know and that the Government of Guam 
settles on what capacities and corrective actions need to be 
taken.
    Mr. Johnson. This is an island that, at its widest level 
is, what, 12 miles from shore to shore? And at its smallest 
level or smallest location, it is 7 miles between one shore and 
the other. Is that correct?
    Admiral Willard. I don't have the exact dimensions, but to 
your point, sir, I think Guam is a small island.
    Mr. Johnson. A very small island and about 24 miles, if I 
recall, long. So 24 miles long, about 7 miles wide at the least 
widest place on the island and about 12 miles wide on the 
widest part of the island.
    And I don't know how many square miles that is. Do you 
happen to know?
    Admiral Willard. I don't have that figure with me, sir. I 
can certainly supply it to you if you would like.
    Mr. Johnson. Yes. My fear is that the whole island will 
become so overly populated that it will tip over and capsize.
    Admiral Willard. We don't anticipate that. The Guam 
population, I think, currently about 175,000 and, again, with 
8,000 Marines and their families, it is an addition of about 
25,000 more into the population.
    Mr. Johnson. And, also, things like the environment, the 
sensitive areas of the environment--coral reefs and those kinds 
of things. And I know that, you know, lots of people don't like 
to think about that, but you know, we didn't think about global 
warming either.
    Now, we do have to think about it. And so I am concerned 
from an environmental standpoint whether or not Guam is the 
best place to do this relocation, but it is actually the only 
place. Is that correct?
    Admiral Willard. This is the best place. This is the 
farthest west U.S. territory that we own. And, you know, this 
is part of our Nation. And in readdressing the forward presence 
and posture importance to Pacific Command, Guam is vital to 
this decision.
    The Chairman. I thank the gentleman.
    Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    Admiral Willard, the comment was made earlier today that in 
order to justify cutting our defense budget, the somehow 
perceived threat from China was decreased in order to justify 
defense cuts. Do you have any reason to think that that is 
accurate?
    Admiral Willard. I think that the Quadrennial Defense 
Review, in characterizing the capabilities that have been part 
of what we have discussed here in terms of China's advances, I 
think the QDR report accurately--it captures the concerns that 
I have regarding China.
    I think, likewise, the Secretary's recent report to 
Congress on China capabilities accurately captures the concerns 
that we have with regard to China as well as we have already 
discussed some of the opportunities.
    So I do believe we understand the issues that we face out 
there. I spend a great deal of time and focus ensuring that I 
know these things and in communicating those to my counterparts 
and to my boss back in the Pentagon.
    Dr. Snyder. This is my 14th year here, and through the 
years I have occasionally asked this question, and I will ask 
you because I don't think you and I have talked about it 
before.
    At the highest ranks of Navy leadership, when you look at 
what the Chinese military is doing as their economy has grown 
over the last 2 or 3 decades, as they modernize their military, 
as they look to widen their military capability to extend out 
into the Pacific, how do you evaluate, if you were a Chinese 
Navy admiral, how do you evaluate, from your perspective, what 
is appropriate modernization consistent with their stature as a 
country with a growing economy versus behavior that we would 
think is not appropriate for a nation? Or does it matter from 
your perspective as U.S. Navy----
    Admiral Willard. I think it does matter, and I think, sir, 
you are capturing the dilemma that we have with them. So this 
is China's global strategy and regional approach. The stated 
intentions versus the actions that we actually see and the type 
of capabilities and so on that they develop, so to the extent 
the stated strategy is a peaceful contribution to a harmonious 
existence throughout the region and across the globe and what 
is developed are area-denial weapons and capabilities and power 
projection capabilities. The incongruence in that is what we 
are endeavoring to both understand and to answer.
    And in our engagement with China, while we seek to 
cooperate in areas of common interest, we want to have frank 
dialogues on exactly what you have suggested is the question.
    Dr. Snyder. All right. Thank you for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I thank the gentleman.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony today and your 
service to our Nation.
    I would just like to turn to a couple of areas, both cyber 
issues and missile defense, if I could.
    If I could, could you tell me what PACOM is doing in terms 
of defending our cyber assets if you are thinking of how PACOM 
has responded to recent reports of cyber attacks originating 
from China against Google. Clearly, this is--modern warfare has 
probably changed, and our cyber systems are at risk, and we 
can't move quick enough as far as I am concerned to protect 
those assets.
    I also wondered, if you could, respond to China's missile 
defense--China's midcourse interception test earlier this year 
and how has PACOM factored that into the work that it does. And 
could you also give me an update on where we are on the Navy's 
role in missile defense, particularly in your AOR?
    Admiral Willard. Yes, sir. I will.
    As you suggest, cyber is a concern that I think is 
manifested in our Nation, let alone, in our military. 
Certainly, a concern in Pacific Command. We have been 
contending with intrusions, some of which are likely emanating 
from the People's Republic of China [PRC] for years at this 
point. And I think you have seen the culmination of some of 
that as some of those intrusions have reached into our 
corporate communities most recently.
    The actions that we have taken in Pacific Command to 
contend with this range from passive defense actions to more 
active defense actions where we are endeavoring to understand 
all of the cyber domain as it relates to our command and 
control capabilities and information sharing capabilities and 
exactly how to defend them.
    And this is a combination of organizational adjustments, 
process adjustments, and technological additions to our systems 
that will help protect it as well as the mitigating actions 
when we do come under attack and how we deal with it.
    So we take many actions day to day. We have plans for 
contingency, and we are working very closely with Strategic 
Command [STRATCOM], the newly formed Cyber Command, and the 
Pentagon to ensure that our requirements in Pacific Command are 
understood and met. We think we are pretty central to the 
problem out there, and we are exercising to it as well in our 
large-scale exercises.
    Mr. Langevin. Are you factoring in resilience and 
redundancies so that, should the system go down as a result of 
the cyber attack, that you will be able to respond, bounce back 
quickly?
    Admiral Willard. Yes, sir. As I mentioned, in passive 
defenses, that is hardening. That is the resilience and 
redundancy as well as our ability in, under attack, to come 
back with a secondary plan, a branch plan in order to continue 
to command and control.
    So this is a very multidimensional approach and, again, we 
are advancing in this, and I think we, as a Nation, have a long 
way to go to be assured that we are protecting our cyber 
domain. I think, inevitably, this will be a global challenge 
that will be discussed internationally and, ultimately, solved 
internationally.
    On your question of China's missile defenses, the question 
arises as to whether or not the most recent exercise by China 
that had to do with a missile intercept was an anti-satellite 
test or a missile defense test. And we are monitoring China's 
capabilities in this area very closely, particularly concerned 
with their approaches to counter space.
    Mr. Langevin. And status on your role in integrating 
responsibilities in missile defense?
    Admiral Willard. In my previous assignment as the Pacific 
Fleet Commander, I was immersed in missile defense capabilities 
on the maritime side, the use of our Aegis platforms, and the 
naval dimension of missile defense but also its integration 
into our theater missile defense plans, regional missile 
defense plans, and national missile defense plans which now 
incorporate ground-based interceptors, THAAD [Terminal High 
Altitude Area Defense] missile systems, Patriot, and the like.
    Mr. Langevin. Okay. Thank you, gentlemen.
    The Chairman. Thank the gentlemen. It appears no one else 
has a question. Let me end with one question.
    Admiral, China has recently suspended the military-to-
military contacts since American arms sales to Taiwan. What is 
the status of that now? And is China continuing to cooperate 
with us on maritime security issues?
    Admiral Willard. As you suggest, after the last 
announcement of Taiwan arms sales, China, once again, suspended 
military-to-military relations with the United States. If I 
were to look across all the forms of engagement across the 
departments of the U.S. with China, our military-to-military 
engagement is probably lagging all other forms of engagement as 
a consequence of both lack of substance at times in the 
engagement as well as the suspensions that routinely 
characterize it.
    We are seeking to reengage with China at multiple levels, 
and we look forward to the opportunity to reengage mil-to-mil 
both in terms of visitation and in terms of a variety of forms 
of contact with them.
    I think the broader issue is China's appreciation for the 
value of mil-to-mil on a continuum, which we believe very 
strongly contributes to not just the military-to-military 
understanding and dialogue between the two countries but our 
ability to prevent misinterpretation, misunderstanding, and 
sometimes miscalculation.
    So we are encouraging our Chinese counterparts to consider 
mil-to-mil differently than they have in the past.
    The Chairman. Mr. Larsen has an additional question.
    Mr. Larsen. Thank you, Mr. Chairman.
    And this will save staff time on the question for the 
record. It gets back to the security assistance and the 
patchwork of programs that you have, and just a quick comment 
for context.
    A lot of discussion, obviously, on China, on Korea, and 
Japan, but showing our commitment to a lot of the smaller 
countries in terms of population and maybe they don't get in 
the news a lot. These programs that we have that can help with 
our outreach on the military side of some of these countries is 
very important.
    What changes to the patchwork of programs would be 
necessary to help with the security assistance that will, you 
know, underscore that message of engagement that we are trying 
to have with these other countries in the region?
    Admiral Willard. Thank you, Congressman Larsen.
    The importance of this, as you suggest, in capacity 
building and capability growth among our partners in the 
region, critically important. I think if you were to poll them 
and say, ``What in security assistance is lacking in your 
relationship with the United States military?'', it is often 
our ability to deliver to their needs with speed.
    And so this gets into the processes associated with our 
foreign military support--FMS--our ability to execute foreign 
military sales and even some of the vehicles that we go to for 
other means of security assistance to fund to their immediate 
needs.
    So in lieu of years of effort in order to achieve a sale to 
one of these countries or an offer of excess capability to one 
of these countries, they are seeking assistance, often, in 
weeks and months. And our aged systems, processes, don't 
support that.
    So I very much endorse Secretary Gates' initiatives to try 
and streamline, particularly FMF [Foreign Military Financing], 
FMS processes--foreign military sales processes--in order to 
meet some of the speed demands that I perceive in the region.
    Mr. Larsen. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Taylor has an additional 
question.
    Mr. Taylor. Admiral, I am very much in support of the 
President's decision to move our national missile defense on 
ships. I was an early convert to Admiral Roughead's decision to 
truncate the 1,000 [DDG-1000 Zumwalt-Class Destroyer] and go 
back to building 51s [DDG-51 Arleigh Burke-Class Destroyers].
    But given the complexity and the added dimension of another 
nation's anti-ship missile that is now a factor, do you feel 
like we are doing everything we need to have a fleet that can 
defend itself while it is providing our Nation's missile 
defense while it is obviously engaged in other actions around 
the world? Or is there something that we need to be doing 
additionally that, because of the new requirement for missile 
defense, has that changed the things you need? And are we 
getting you the things that you need?
    Admiral Willard. I think there are a couple ways to answer 
that. One is, in missile defense itself, there is the point 
defense requirements that our units need in order to be 
protected, so there are layered defenses that come down to a 
very internalized defense that each ship needs to be capable 
of.
    And I think we understand what those are, but our ability 
to contend, as you suggest, in an area-denial environment where 
we are relying on our ships for missile defense but also for 
four or five other mission areas in their multimission 
assignment, very important that they have the capabilities both 
in layering to defend themselves and as individual units to 
defend themselves.
    As I have viewed into the programs that are in work, both 
in areas that are kinetic and in areas that are non-kinetic, we 
are addressing these issues. I have advocated for many years 
for a better anti-ship capability within our fleet, and I think 
that, in the areas of development, we are seeking to understand 
what those requirements are.
    So to your point, yes, our units need to defend themselves. 
And it becomes increasingly important as we rely on them in 
this new and very critical mission area. I think we are 
addressing these areas. I think they are vitally important that 
we pay attention to what those programs are and ensure that 
they are followed through.
    Mr. Taylor. I guess the simple question is: With that 
additional mission, are 313 ships enough? Or does that number 
have to go up again, keeping in mind that they not only have to 
defend us from missiles, but they have to defend themselves or 
else they are no good to us in the first instance?
    And that has got to have changed--plus the threat of that 
missile that everyone knows is out there.
    Admiral Willard. Some of the ballistic missile defense 
developments on the weapons side--so this is SM-3 
developments--and the theater-level missile terminal 
capabilities that are under discussion and in development--I 
think these are the areas that will allow us to continue to 
incorporate these as multimission platforms across broader 
areas.
    I think that CNO [Chief of Naval Operations], right now, 
characterizes 313 as a floor, and I agree with that. I think 
that our shipbuilding, ship numbers, quantity of fleet are very 
important to United States Pacific Command, and I would expect 
that all the combatant commanders feel the same.
    So there is an importance in our continuing our 
shipbuilding efforts. I think that the answer with regard to 
this particular mission area across the multimissions of these 
units is a more multifaceted answer than simply numbers. It is 
the follow-on weapon developments as well.
    Mr. Taylor. Admiral, you know my concerns. You are in town. 
I would welcome the opportunity to talk to you off the record.
    Admiral Willard. I would be happy to do that, sir. Thank 
you.
    The Chairman. Thank the gentlemen.
    General Sharp, thank you so much for being with us again. 
It is good to see you.
    And, Admiral Willard, we hope to see you many times in this 
role, so with that, we thank you for your service and the 
service of those you represent. The hearing is closed.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 25, 2010
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8295.001
    
    [GRAPHIC] [TIFF OMITTED] T8295.002
    
    [GRAPHIC] [TIFF OMITTED] T8295.003
    
    [GRAPHIC] [TIFF OMITTED] T8295.004
    
    [GRAPHIC] [TIFF OMITTED] T8295.005
    
    [GRAPHIC] [TIFF OMITTED] T8295.006
    
    [GRAPHIC] [TIFF OMITTED] T8295.007
    
    [GRAPHIC] [TIFF OMITTED] T8295.008
    
    [GRAPHIC] [TIFF OMITTED] T8295.009
    
    [GRAPHIC] [TIFF OMITTED] T8295.010
    
    [GRAPHIC] [TIFF OMITTED] T8295.011
    
    [GRAPHIC] [TIFF OMITTED] T8295.012
    
    [GRAPHIC] [TIFF OMITTED] T8295.013
    
    [GRAPHIC] [TIFF OMITTED] T8295.014
    
    [GRAPHIC] [TIFF OMITTED] T8295.015
    
    [GRAPHIC] [TIFF OMITTED] T8295.016
    
    [GRAPHIC] [TIFF OMITTED] T8295.017
    
    [GRAPHIC] [TIFF OMITTED] T8295.018
    
    [GRAPHIC] [TIFF OMITTED] T8295.019
    
    [GRAPHIC] [TIFF OMITTED] T8295.020
    
    [GRAPHIC] [TIFF OMITTED] T8295.021
    
    [GRAPHIC] [TIFF OMITTED] T8295.022
    
    [GRAPHIC] [TIFF OMITTED] T8295.023
    
    [GRAPHIC] [TIFF OMITTED] T8295.024
    
    [GRAPHIC] [TIFF OMITTED] T8295.025
    
    [GRAPHIC] [TIFF OMITTED] T8295.026
    
    [GRAPHIC] [TIFF OMITTED] T8295.027
    
    [GRAPHIC] [TIFF OMITTED] T8295.028
    
    [GRAPHIC] [TIFF OMITTED] T8295.029
    
    [GRAPHIC] [TIFF OMITTED] T8295.030
    
    [GRAPHIC] [TIFF OMITTED] T8295.031
    
    [GRAPHIC] [TIFF OMITTED] T8295.032
    
    [GRAPHIC] [TIFF OMITTED] T8295.033
    
    [GRAPHIC] [TIFF OMITTED] T8295.034
    
    [GRAPHIC] [TIFF OMITTED] T8295.035
    
    [GRAPHIC] [TIFF OMITTED] T8295.036
    
    [GRAPHIC] [TIFF OMITTED] T8295.037
    
    [GRAPHIC] [TIFF OMITTED] T8295.038
    
    [GRAPHIC] [TIFF OMITTED] T8295.039
    
    [GRAPHIC] [TIFF OMITTED] T8295.040
    
    [GRAPHIC] [TIFF OMITTED] T8295.041
    
    [GRAPHIC] [TIFF OMITTED] T8295.042
    
    [GRAPHIC] [TIFF OMITTED] T8295.043
    
    [GRAPHIC] [TIFF OMITTED] T8295.044
    
    [GRAPHIC] [TIFF OMITTED] T8295.045
    
    [GRAPHIC] [TIFF OMITTED] T8295.046
    
    [GRAPHIC] [TIFF OMITTED] T8295.047
    
    [GRAPHIC] [TIFF OMITTED] T8295.048
    
    [GRAPHIC] [TIFF OMITTED] T8295.049
    
    [GRAPHIC] [TIFF OMITTED] T8295.050
    
    [GRAPHIC] [TIFF OMITTED] T8295.051
    
    [GRAPHIC] [TIFF OMITTED] T8295.052
    
    [GRAPHIC] [TIFF OMITTED] T8295.053
    
    [GRAPHIC] [TIFF OMITTED] T8295.054
    
    [GRAPHIC] [TIFF OMITTED] T8295.055
    
    [GRAPHIC] [TIFF OMITTED] T8295.056
    
    [GRAPHIC] [TIFF OMITTED] T8295.057
    
    [GRAPHIC] [TIFF OMITTED] T8295.058
    
    [GRAPHIC] [TIFF OMITTED] T8295.059
    
    [GRAPHIC] [TIFF OMITTED] T8295.060
    
    [GRAPHIC] [TIFF OMITTED] T8295.061
    
    [GRAPHIC] [TIFF OMITTED] T8295.062
    
    [GRAPHIC] [TIFF OMITTED] T8295.063
    
    [GRAPHIC] [TIFF OMITTED] T8295.064
    
    [GRAPHIC] [TIFF OMITTED] T8295.065
    
    [GRAPHIC] [TIFF OMITTED] T8295.066
    
    [GRAPHIC] [TIFF OMITTED] T8295.067
    
    [GRAPHIC] [TIFF OMITTED] T8295.068
    
    [GRAPHIC] [TIFF OMITTED] T8295.069
    
    [GRAPHIC] [TIFF OMITTED] T8295.070
    
    [GRAPHIC] [TIFF OMITTED] T8295.071
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             MARCH 25, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. FORBES

    Admiral Willard. The United States Pacific Command develops the 
Integrated Priority List (IPL) as part of the Comprehensive Joint 
Assessment response to the Chairman of the Joint Chiefs of Staff. The 
IPL is my top ten capability gaps derived from analysis and assessment 
of the Pacific theater operational and contingency plans. The IPL 
becomes the ``war fighter's voice'' within the Pentagon and exists to 
provide a transition from planning to programming. I rely upon the 
Services and defense agencies to use the IPL too as a foundational 
element as they develop their individual Program Objective Memoranda 
(POM). When the Services are unable to fund all the needs within their 
POM, they use the unfunded requirements mechanism to identify 
additional resources for emergent and growing operational needs.
    Navy's FY11 unfunded list for Aviation Spares, Ship Depot 
Maintenance, and Aviation Depot Maintenance are all key to sustaining 
crucial operational capabilities in the Pacific.
    I cannot stress enough the importance of sustaining and maintaining 
the fleet. I depend upon the Navy and the Commander of the Pacific 
Fleet to provide prompt, capable, forward naval presence to continue 
our engagement strategy across the region. Our allies and regional 
partners depend on our naval aviation and maritime capabilities to 
assure and deter. I strongly endorse the Navy's effort to sustain war 
fighting capabilities they seek in their FY11 unfunded list to mitigate 
risk to the Pacific Command. [See page 15.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. Admiral Willard and General Sharp, the 4 phases of the 
Phased, Adaptive Approach (PAA) provide some direction on the 
development of missile defense in Europe, but it does not address the 
PACOM region specifically. How do you see the Phased, Adaptive Approach 
(PAA) applying to PACOM? What are the milestone dates to gain a 
capability in PACOM? What specific systems and inventory levels will be 
required to support a PAA in PACOM? What sites are likely candidates 
for land-based SM-3s and what is the status of host nation agreements 
for those sites?
    Admiral Willard and General Sharp. [The information referred to is 
classified and retained in the committee files.]
    Mr. Lamborn. Admiral Willard and General Sharp, please discuss the 
threat that North Korean ballistic missiles pose in the region. How do 
you assess the current threat and the near-term threat over the next 
five years? I am especially concerned about the progress the North 
Koreans made in longer-range ballistic missiles last year and I would 
like to hear your assessment of where we stand today and in the future.
    Admiral Willard. [The information referred to is classified and 
retained in the committee files.]
    General Sharp. North Korea continues to develop its ballistic 
missile forces in order to threaten not only the Republic of Korea, 
USFK, and all of Japan but increasingly U.S. bases and territory in the 
western Pacific and beyond. Already possessing hundreds of theater 
ballistic missiles capable of doing significant damage to the South 
Korean and Japanese economies, we believe North Korea is now focused on 
improving the range, accuracy, and overall quality of its missiles. 
Recently, Pyongyang fielded a long-range theater ballistic missile, 
probably capable of threatening U.S. bases on Guam and the Aleutian 
Islands.
    North Korea's announced intention on 29 April 2009 to conduct an 
``intercontinental ballistic missile'' (ICBM) test launch--coming 
shortly after the 5 April 2009 Taepo Dong-2 (TD-2) apparent satellite 
launch attempt--suggests a separate line of long-range missile 
development that could bring Hawaii, Alaska, and the U.S. mainland 
under threat of attack. Moreover, Pyongyang is likely interested in 
eventually developing a more survivable mobile ICBM--a natural 
evolutionary step given its goal of maintaining a credible deterrent 
and considering all other mature North Korean ballistic missile systems 
are mobile. If North Korea pursues robust research & development and 
testing, it is certainly possible for it to have an operational ICBM-
range missile in five years' time.
    With the 2009 launches of the multistage TD-2 Space Launch Vehicle 
and multiple-theater ballistic missiles, North Korea probably gained 
valuable testing experience, furthering the development of long-range 
missiles. Future TD-2 Space launch attempts may also serve as a test 
bed for other long-range missiles in development and the TD-2 itself 
could probably be used as a backup or alternate ICBM. Considering North 
Korea's steady pursuit of both longer-range missiles and nuclear 
weapons, we believe the Kim Jong-il regime seeks to hold U.S. territory 
throughout the Pacific and the continental U.S. at risk of nuclear 
missile attack.
    Mr. Lamborn. Admiral Willard and General Sharp, the 
Administration's shift to the Phased, Adaptive Approach (PAA) in 
missile defense last Fall drives many force structure changes. As AEGIS 
Ballistic Missile Defense (BMD)-capable ships are allocated to the 
Middle East and European missile defense to meet PAA milestones, does 
PACOM retain enough AEGIS-based missile defense capability to meet its 
needs against the growing threats in the region? What is the specific 
PACOM requirement for BMD-capable ships today? What do you project as 
the requirement in 5, 10 or 15 years?
    Admiral Willard and General Sharp. [The information referred to is 
classified and retained in the committee files.]
    Mr. Lamborn. Admiral Willard and General Sharp, Admiral, the cyber 
attack against Google in China highlights an existing vulnerability for 
the United States. Our technological edge is a double-edged sword. 
There have been many initial steps taken to respond to the very real, 
and growing cyber threat. What has PACOM done specifically to respond 
to the threat and how do you assess the cyber threat to your 
operations?
    Admiral Willard. PACOM has increased its cyber security posture as 
well as its vigilance regarding cyber threats to thwart any adversary's 
intrusions on PACOM networks. Specifically, we have created a Cyber 
Fusion Center to coordinate directorate responses to network intrusions 
and to prevent network intrusions when possible. Through the Cyber 
Fusion Center, we have recently published theater Tailored Response 
Options and an Information Assurance situational awareness report to 
increase the theater's and headquarters' situational awareness 
regarding PACOM's cyber threat. We assess the current cyber threat to 
our operations as high.
    General Sharp. I will address this question from the perspective of 
United States Forces Korea (USFK). We agree that there is a persistent 
and evolving cyber threat against USFK. We assess the current risk to 
USFK operations as low due to our ability to implement countermeasures.
    Historically, we have implemented a layered computer network 
security defense structure termed Defense-in-Depth that has 
successfully mitigated the risk of cyber threat Computer Network Attack 
(CNA) and Computer Network Exploitation (CNE). A Red Team assessment 
that simulated cyber threat activities during March 2010 validated our 
secure and strong defensive posture. However, cyber threat actors have 
discovered new ways to circumvent our Defense-in-Depth structure with 
varying degrees of success. As such, in order for USFK to maintain 
confidence in the protection of our networks, we must continue to 
identify and resource new technologies that defend against the evolving 
threats. The discussion below outlines the mitigation steps USFK 
implements on a daily basis to respond to cyber threats.
    USFK employs various layers of Defense-In-Depth countermeasures to 
thwart off attacks similar to the Google Aurora cyber threat; to 
include four different commercial vendors of network layer Intrusion 
Detection System (IDS) used at the network layer which identify network 
traffic at the source and destination. We also use web cache engines 
that screen malicious content, and reverse proxy servers for public-
facing web servers. Secure external remote access to our networks is 
achieved through Virtual Private Network (VPN) concentrators and Public 
Key Infrastructure (PKI) for authentication.
    USFK has implemented additional host security tools. These products 
defend against known, unknown zero-day exploits, and malware. We 
utilize four different vendors for remediating and identifying 
vulnerabilities in our Defense-In-Depth architecture. Units in Korea 
are given the Army Gold Masters (AGM) software image for ensuring a 
secure baseline is being maintained; this software baseline is also 
validated daily with the Host Based Security System (HBSS) tool. There 
are three different antivirus vendors that are used to ensure the 
malware is detected, stopped, and eradicated from the Email servers. 
The Common Access Card (CAC) utilizes PKI for identity management. 
These combined technologies provide user confidentiality, integrity, 
authentication, and non-repudiation when using information systems. 
USFK users are required to sign an Acceptable Use Policy, and receive 
annual security awareness training to reinforce security focused usage 
on government networks. PKI has been detrimental in email phishing 
attempts like those used in the Google Aurora cyber threat.
    Note--USFK was used as the test bed for DOD's deployment of HBSS, 
Hercules, and Retina Enterprise Manager (REM). Since we were one of the 
first enterprises to successfully deploy HBSS, Defense Information 
Systems Agency (DISA) and McAfee have modeled their BBPs off of our 
deployment methods.
    In the past 6 months, DISA performed two Command Cyber Readiness 
Inspections (CCRI) on the Korean Peninsula. Both Kunsan Air Base and 
Joint Command Information Systems Activity (JCISA) inspections resulted 
in monitor compliance and excellent marks, respectively. The 1st Signal 
Brigade Korea-Theater Network Operations and Security Center (K-TNOSC) 
is scheduled for their CCRI in June.
    Microsoft released a patch for this zero-day vulnerability on the 
21st of January 2010; one week after the initial US-CERT notice. Before 
this patch was made available, USFK IA/CND informed their community of 
the vulnerability and available countermeasures recommended in JTF-GNO, 
US-CERT, and other civilian reports. USFK maintains a robust 
Information Assurance Vulnerability Management (IAVM) program. As of 31 
March 2010, USFK is currently 99.40% compliant for this particular 
Information Assurance Vulnerability Alert (IAVA).

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
